BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief of
International Law Scholars, Former Diplomats, and
Practitioners as Amici Curiae in Support of
Respondents, in 19-416, Nestle USA, Inc. v. John Doe
I, et al. and in 19-453, Cargill, Inc. v. John Doe I, et al.
were sent via Next Day Service to the U.S. Supreme
Court, and 3 copies were sent via Next Day Service
and e-mail, as required by Supreme Court Rule 29.5(c),
to the following parties listed below, this 21st day of
October, 2020:
Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
(202) 637-5528
neal.katyal@hoganlovells.com

Counsel for Petitioner Nestle USA, Inc.
Andrew John Pincus
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3220
apincus@mayerbrown.com

Counsel for Petitioner Cargill, Incoporated.

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

. BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

Paul Lindsey Hoffman
Schonbrun Seplow Harris & Hoffman LLP
200 Pier Ave. STE 226
Hermosa Beach, CA 90254
(310) 717-7373
hoffpaul@aol.com

Counsel for Respondents
Beth Van Schaack
Counsel of Record
Visiting Professor of Law
Stanford Law School
559 Nathan Abbott Way
Stanford, CA 94305
(650) 725-5310
bethvs@stanford.edu
Emma Lindsay
J ovana Crncevic
Joseph Gallo
Withers Bergman LLP
430 Park Avenue
New York, NY 10022
(212) 848-9800
Emma.Lindsay@withersworldwide.com
Jovana.Cmcevic@withersworldwide.com
Joseph.Gallo@withersworldwide.com

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 21, 2020.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

{Jvtit.uc dJ , dU06

Jr~[], b~

Notary Public
[seal]

